Mr. Scott Harris
Clerk of Court
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
May 25, 2021
Re: State of Louisiana v. Aaron Hauser, No. 20-1315
Dear Clerk of Court,
I am counsel for Respondent in this case, Mr. Aaron Hauser. On March 5, 2021, the State of
Louisiana filed its petition for a writ of certiorari. Mr. Hauser waived his right to respond because
the State filed its petition more than 150 days after the Louisiana Supreme Court’s order denying
review. On April 7, 2021, the Court requested a response to the petition. On April 23, 2020, the
Court granted undersigned counsel’s request for an extension. The brief in opposition is currently
due on June 7, 2021.
I write, pursuant to Supreme Court Rule 30.4, to request an additional 30-day extension of time
to and including Wednesday, July 7, 2021, for Respondent to file his brief in opposition. See S. Ct.
R. 30.1.
This extension is requested so that undersigned counsel may adequately prepare a response.
Undersigned counsel works for a non-profit, public defender agency. The additional time is
warranted given undersigned counsel’s caseload, recent rulings and previous commitments.
Counsel for the Petitioner does not object to this request for an extension.
Thank you for your prompt attention and assistance on this matter.
Sincerely,

Jill Pasquarella

cc: Elizabeth Baker Murrill, Solicitor General, State of Louisiana

